<html>
<title> - CREATING U.S. MARITIME INDUSTRY JOBS BY REDUCING REGULATORY BURDENS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                  CREATING U.S. MARITIME INDUSTRY JOBS
                     BY REDUCING REGULATORY BURDENS

=======================================================================

                                (112-32)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
66-528                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
VACANCY

                                  (ii)

  
?

        Subcommittee on Coast Guard and Maritime Transportation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
ANDY HARRIS, Maryland                CORRINE BROWN, Florida
FRANK C. GUINTA, New Hampshire       TIMOTHY H. BISHOP, New York
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              MICHAEL H. MICHAUD, Maine
JEFFREY M. LANDRY, Louisiana,        NICK J. RAHALL II, West Virginia
  Vice Chair                           (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Cook, Rear Admiral Kevin S., Director of Prevention Policy, 
  United States Coast Guard......................................     4
Lederer, Calvin M., Deputy Judge Advocate General, United States 
  Coast Guard....................................................     4

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Cook, Rear Admiral Kevin S., and Lederer, Calvin M., joint 
  statement, and chart entitled, ``Coast Guard Rulemaking Actions 
  Related to Outstanding Statutory Requirements (by Age)''.......    45

                       SUBMISSIONS FOR THE RECORD

Request by Rep. Landry to submit written statement from Horizon 
  Lines, Inc.....................................................    35

United States Coast Guard:

    Chart entitled, ``Active Rules at Start of Fiscal Year''.....     6
    Chart entitled, ``Final Rules Published''....................     8
    Correction to RADM Cook's statement about the amount of 
      additional billets hired...................................    15
    Response to Rep. Larsen's inquiry about the Coast Guard's 
      status on implementing the following provisions of the 
      Coast Guard Authorization Act of 2010: expanding the 
      definition of ``higher volume port area,'' initiating 
      negotiations with Canada to require tugboat escorts for all 
      laden tank vessels transiting the northwest straits region 
      of Puget Sound, and issuing recommendations for the full 
      range of options for the management of maritime traffic and 
      to enhance spill prevention and response systems...........    21
    Response to Rep. Harris's request to move the channel buoy at 
      Rock Hall Harbor...........................................    23
    Response to Rep. Cravaack's inquiry about fees associated 
      with an Operator of Uninspected Passenger Vessels (OUPV) 
      (``Six-Pack'') license.....................................    24
    Response to Rep. Cravaack's inquiry about the place closest 
      to Minnesota at which Six-Pack license applications are 
      accepted...................................................    24
    Response to Rep. Cravaack's inquiry as to why the Coast Guard 
      has determined that Mille Lacs Lake is a navigable waterway 
      of the United States.......................................    25
    Correction to RADM Cook's response to Rep. Larsen's inquiry 
      about when the Coast Guard will publish a notice of 
      proposed rulemaking on the Cruise Vessel Safety and 
      Security Act...............................................    30
    Response to Rep. Landry's request for a list of Members of 
      Congress who have inquired about notice of arrival and the 
      date of the inquiry........................................    32

[GRAPHIC] [TIFF OMITTED] T6528.001

[GRAPHIC] [TIFF OMITTED] T6528.002

[GRAPHIC] [TIFF OMITTED] T6528.003

[GRAPHIC] [TIFF OMITTED] T6528.004

[GRAPHIC] [TIFF OMITTED] T6528.005

[GRAPHIC] [TIFF OMITTED] T6528.006

[GRAPHIC] [TIFF OMITTED] T6528.007



                CREATING U.S. MARITIME INDUSTRY JOBS BY
                      REDUCING REGULATORY BURDENS

                              ----------                              


                         TUESDAY, MAY 24, 2011

                  House of Representatives,
                    Subcommittee on Coast Guard and
                           Maritime Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:30 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Howard Coble 
presiding.
    Mr. Coble. The subcommittee will come to order. As you all 
know, there is a joint session scheduled for 11:00. Hopefully 
we will be finished prior to then, but if we are not through, 
say, by 10:45, I suggest that we recess and then come back here 
immediately after the joint session concludes.
    Chairman LoBiondo, by the way, had a conflict and asked me 
to stand in. So it is good to be with you, Mr. Larsen, this 
morning. It is good to have you all here.
    The subcommittee is meeting today to review the Coast 
Guard's regulatory program to examine ways to improve the 
Service's rulemaking process. We are also interested in the 
status of pending rules and the impact they will have on 
maritime safety and commerce.
    The Coast Guard has brought authority to regulate maritime 
commerce, including establishing and enforcing rules to ensure 
mariner safety, vessel and facility safety and security, and 
the protection of the environment. With such mass authority 
comes great responsibility to regulate industry in a fair and 
reasonable way. This hearing will focus on ensuring that Coast 
Guard rulemaking is just that, fair and reasonable.
    It is important to remember that the United States economy 
is fueled by maritime commerce. While regulations must address 
concerns relating to safety, security, and stewardship, they 
must also balance the importance of maintaining the free flow 
of maritime commerce.
    Domestic shipping alone is responsible for over 500,000 
American jobs and $100 billion in annual economic output. 
Additionally, 90 percent of all global trade and over 25 
percent of our gross domestic product moves via sea. With the 
economy still in a fragile state and unemployment at record 
levels, it is imperative for the Federal Government to foster 
an atmosphere where our maritime industry can compete and 
expand. To that end, I am concerned about the cost and impact 
of several forthcoming Coast Guard rulemakings. Specifically, 
rules requiring fishing vessel examinations, the purchase of 
automatic identification system for small vessels, and the 
installation of ballast water treatment systems aboard vessels 
could have tremendous impacts on the economy. If these and 
other rules are not done in a commonsense manner, I am 
concerned they could drastically increase operating costs for 
businesses, hamper growth, and kill jobs at a time when our 
Nation can ill afford economic setbacks.
    Finally, just as we are facing tough decisions on how to 
cut the deficit, these and other pending regulations will 
require additional personnel and funding for the Coast Guard. I 
look forward to hearing from our witnesses on how the Coast 
Guard intends to find the resources to pay for the expansion of 
its regulatory mission as well as what steps it is taking to 
ensure rules are put forth in an efficient and commonsense 
manner.
    I thank you all for appearing today, and I am now pleased 
to recognize the distinguished gentleman from Washington for 
his opening statement.
    Mr. Larsen. Thank you, Mr. Chairman. Good morning. And 
thank you for convening today's hearing to examine the status 
of major rulemaking activities by the U.S. Coast Guard and 
their impact on job creation in our domestic maritime 
industries and the overall economy.
    Revitalizing and growing our maritime economy is a high 
priority for me, and I want to thank you for taking interest in 
this matter this morning, Mr. Chairman. The Coast Guard is a 
multimission maritime military service of the United States. It 
is the principal Federal agency responsible for ensuring marine 
safety, preserving maritime and port security, enhancing 
maritime commerce, and protecting the marine environment.
    Not surprisingly, rulemaking is a prominent Coast Guard 
activity. In light of the Service's broad portfolio, 
regulations issued by the Service affect and enhance virtually 
every sector of our domestic maritime economy.
    Mr. Chairman, we should examine whether regulatory burdens 
adversely affect job creation. In today's economy we in 
Congress have no greater responsibility than to focus on 
protecting and creating jobs in the private sector. However, 
the Coast Guard is one agency whose regulatory portfolio can 
enhance jobs.
    The Coast Guard's regulations ensure that vessels are safe, 
that workers in maritime-based industries are protected in 
their lives and in their livelihoods, that water-run commerce 
can move efficiently and, should an accident occur, that there 
will be an effective response.
    Without the certainty afforded by the Coast Guard, our 
maritime commerce and the economy would suffer. Our domestic 
maritime industry significantly impacts the overall U.S. 
economy. According to recent figures published by the American 
Maritime Partnership, the U.S. domestic maritime industry moves 
over 1 billion tons of cargo annually, with a market value of 
$400 billion; sustains 500,000 jobs in total, including 74,000 
jobs on vessels and at shipyards. It generates annually $100 
billion in economic output and $11 billion in tax revenue, and 
pays $29 billion in annual wages. By any measure these numbers 
verify the importance of our responsibility in Congress to 
ensure that the regulations issued by the Coast Guard are fair, 
are targeted, and support our maritime industries, which, by 
extension, will be good for job creation, good for the U.S. 
economy, and good for the American people.
    Of course, as with most Federal agencies, there are some 
instances where the Service's rulemaking or lack thereof have 
created jobs. For example, as was noted in the recently 
released GAO report, efforts to issue regulations to fully 
implement the Transportation Worker Identification Credential, 
or TWIC, remain woefully behind schedule and over budget. Not 
only has this rulemaking process created uncertainty about the 
reliability and effectiveness of TWIC cards, it has spawned 
delays and frustration for mariners, boat operators, and 
longshore workers nationally as well as in my district. Because 
a TWIC card is a prerequisite for the issuance or a reissuance 
of a merchant mariner credential or license, overlapping 
administrative processes have increased costs, prompted delays, 
and created confusion in what otherwise should be a fairly 
routine process. Such inefficiencies are unacceptable. With the 
current need to get people back to work, we simply can't afford 
to strand qualified, able-bodied people on the dock because the 
Federal Government has been unable to effectively and 
efficiently coordinate the TWIC and mariner credential 
programs, which are vital to port security and marine safety.
    With that, Mr. Chairman, we ought not to forget that under 
the present budget framework, budget cuts will impact the 
ability of the Service to promulgate regulations in a timely 
manner. As much as we might like the Coast Guard to do more 
with less, the reality is that the Coast Guard will be doing 
less with less in the current budget environment.
    According to the latest rulemaking summary issued by the 
Coast Guard in January, the Service reported that internal 
planning and administrative reforms implemented through its 
Marine Safety and Security Council and additional resources 
provided in fiscal years 2008 and 2009 budgets enabled the 
Service to reduce its regulatory backlog by 35 percent by the 
end of 2010. Despite this progress, however, the Service 
unfortunately reports that recent efforts to work down the 
backlog may be offset this year by the approximately 20 new 
rulemaking requirements included in last year's Coast Guard 
authorization, which passed this House of Representatives by 
unanimous consent, and by a new rulemaking to address safety 
shortcomings revealed by the Deepwater Horizon oil spill, among 
other new issues.
    Only time will tell, Mr. Chairman, if the Service's 
forecast is accurate. Nevertheless, it does serve to remind us 
that before we look to cast blame on the Service for creating 
burdens, we may want to examine the requirements that we in 
Congress have imposed upon the Service.
    Thank you again Mr. Chairman, for holding this morning's 
hearing, and we look forward to hearing from our witnesses.
    Mr. Coble. Thank you, Mr. Larsen.
    You mentioned doing more with less. I guess the Coast 
Guard, probably more than any other Federal entity known to me, 
has come close to mastering that technique. You have come close 
to making it clear that you can do more with less, and we hope 
that won't be too burdensome. Thank you, Mr. Larsen for your 
opening statement.
    Our witnesses today include Coast Guard Rear Admiral Kevin 
Cook, Director of Prevention Policy; and Mr. Calvin Lederer, 
who is the Deputy Judge Advocate General of the United States 
Coast Guard. We welcome the witnesses for participating today, 
and we appreciate your presence here.
    Admiral, if you and Mr. Lederer could, if you could confine 
your statements to on or about 5 minutes, that will assure us 
of meeting the deadline for the joint session. You will not be 
keelhauled if you go past the 5 minutes, however.
    We will start with you, Rear Admiral Cook.

TESTIMONY OF REAR ADMIRAL KEVIN S. COOK, DIRECTOR OF PREVENTION 
   POLICY, UNITED STATES COAST GUARD; AND CALVIN M. LEDERER, 
    DEPUTY JUDGE ADVOCATE GENERAL, UNITED STATES COAST GUARD

    Admiral Cook. Good morning, Mr. Chairman, Ranking Member 
Larsen. And with your permission, Mr. Chairman, I would like to 
have my written testimony entered into the record.
    Mr. Coble. Without objection.
    Admiral Cook. As you mentioned, I am joined here by Mr. 
Lederer, and I can assure you that we will be brief, sir.
    I would like to highlight two main points in my testimony 
today: first, the impact of Coast Guard regulations, and 
second, the results of investments that Congress and the Coast 
Guard have made to our regulatory development program.
    Regarding my first point, the impacts, the Coast Guard has 
and continues to focus on regulatory efficiency and 
effectiveness, which was reinforced with the recent publication 
of Executive Order 13563. Of the 19 significant rules published 
since 2003, the median first-year cost was approximately $4.5 
million. But upon closer review, we note that three of the 
rulemakings were required by the Marine Transportation Security 
Act of 2002, and these account for nearly 95 percent of those 
total costs. Therefore, typical Coast Guard rulemakings are far 
less burdensome on an industry due in no small part to the 
efforts that go into development, including maximizing the use 
of industry consensus standards, pursuing international 
regulations, the use of performance-based regulations, and 
other measures.
    Benefits of Coast Guard rulemaking are widespread, 
including enhanced safety for our mariners and the boating 
public, protection of our marine environment, and strengthened 
security of our ports and waterways. The Coast Guard will 
continue to seek new means of achieving regulatory benefits 
without undue burden on industry.
    Second, regarding the improvements made to the Coast 
Guard's regulatory development program, I would like to start 
by thanking Congress for the investments made in fiscal years 
2008 and 2009, as Congressman Larsen alluded to in his opening 
statement. This investment brought the number of personnel 
dedicated to rulemaking development to 82 full-time personnel, 
nearly a 50-percent increase. In addition, there are dozens who 
participate as subject-matter experts in specific projects.
    In conjunction with your congressional investment, the 
Coast Guard is undertaking a series of improvements, including 
refining overall processes using an ISO 9001-compliant 
framework, investment in information technologies to streamline 
planning and management, and in training.
    If I could have the first slide, please.
    As a result of these combined investments, the Coast Guard 
has significantly reduced the overall workload as shown in this 
chart.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6528.008
    
    Admiral Cook [continuing]. While some of the reductions in 
backlog have been offset by congressional requirements from the 
authorization act, we are confident that the efficiencies we 
have gained will enable us to make similar reductions in the 
near term.
    Next slide, please.
    As an example of the efficiency, we have increased the rate 
at which final rules have been published since 2008.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6528.009
    
    Admiral Cook [continuing]. The slide highlights our 
continued progress up to the present date. The increase in this 
rate has directly impacted our overall backlog. In addition, in 
fiscal year 2010, public milestones were achieved for 18 Coast 
Guard headquarters rulemaking projects, with all top 50 
projects showing progress.
    Finally, since fiscal year 2009, we have reduced the 
average age of rules under development from 6.2 years to 5.3 
years, with further reductions anticipated.
    So in conclusion, Mr. Chairman, I want to assure you, other 
members of the subcommittee, that the Coast Guard makes every 
possible effort to ensure that regulations we publish are 
timely, effective and efficient. I thank Congress again for the 
investments you have made in improving our capabilities and 
look forward to continued gains as a result of these.
    Thank you, Mr. Chairman.
    Mr. Coble. Thank you, Admiral Cook.
    Mr. Lederer.
    Mr. Lederer. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman and Mr. Larsen.
    In addition to the efforts described by Admiral Cook to 
reduce the impacts of our rules and improve our regulatory 
development processes, the Coast Guard has aggressively pursued 
rulemakings required by the 2010 authorization act. We have 
identified in the act 11 requirements that are self-executing, 
another 14 we are absorbing in existing projects, and 18 that 
require new rules, as Mr. Larsen was pointing out. We have 
started regulatory projects for all 18, and they are under way, 
and we are cognizant of the deadline specified by Congress.
    With the addition of these projects, our active rulemaking 
projects will number 78, up from 60. Half of them are 
statutorily driven. We take very seriously the direction 
provided by Congress, and that direction is a significant 
factor in the priorities we set among regulatory projects.
    While we work diligently to move all regulations along, 
those with higher priority, such as those with a statutory 
mandate, are addressed ahead of others and move more quickly. 
Statutorily mandated rules take an average of 1 year or less to 
move from concept to final rule than do discretionary 
regulations, which originate from sources such as our 
international work, accident investigations, risk analysis, and 
changes in technology. As Admiral Cook noted, we make a major 
effort to ensure that the regulations we promulgate are 
effective and an efficient use of societal resources. This is 
particularly important when so many of our partners in the 
industry and voting public are struggling in this current 
economic climate, as both of you pointed out.
    In our written testimony we highlight the series of layered 
reviews used by the Coast Guard and the administration to 
ensure that the regulatory policy we have is sound, feasible, 
and does not place undue burden on the regulated community. For 
significant rules, those are the ones that are reviewed by the 
Office of Management and Budget, this includes a review of each 
document in the rulemaking process before they are published by 
the Marine Safety and Security Council, which brings together 
under the leadership of the Judge Advocate General every Coast 
Guard flag officer and senior executive with substantial 
responsibility for rulemaking.
    The MSSC is a significant investment of flag officer and 
SES time and attention to ensure we get it right the first 
time. The review of rulemaking documents as rules progress is 
in addition to review by the MSSC at the outset of every 
regulatory project to improve the project in the first instance 
and placing it on the regulatory agenda. These reviews ensure 
that all the Coast Guard's regulatory actions work holistically 
and without unduly burdening industry.
    President Obama's January Executive Order 13563 requires a 
retrospective review of already issued regulations. DHS asked 
the public to identify regulations that should be included in 
the retrospective review. We were pleased that public comments 
only identified three about the Coast Guard, and only one 
comment described the regulations as overly burdensome, and 
that was the MTSA regulations that Admiral Cook referred to. We 
think that this is one indicator that Congress and the Coast 
Guard together have made sound rulemaking decisions.
    I also want to thank Congress for the investments made in 
improving our capabilities, which we see every day and look 
forward to the continuing gains as a result. Thank you very 
much.
    Mr. Coble. Thank you both.
    Gentlemen, you have complied with the 5-minute rule. We 
thank you for that.
    Mr. Lederer, last year a coalition of U.S. flag vessel 
operators, maritime unions, and domestic shipbuilders 
petitioned the Coast Guard to initiate a rulemaking to clarify 
the extent to which a vessel can be rebuilt in a foreign 
shipyard and still at the same time maintain its eligibility 
under the Jones Act. When will the Coast Guard issue a notice 
of proposed rulemaking in response to this petition?
    Mr. Lederer. Mr. Chairman, with respect to that, the 
petition--I would want to point out one thing at the outset. 
With respect to petitions for rulemaking, we have received 
around 50 of those since 2002, and 9 out of the 50 actually 
resulted in a notice of proposed rulemaking, which is, I think, 
another indicator of the responsiveness of the Coast Guard to 
petitions from the public and from industry.
    With respect to foreign rebuilds, we put that petition out 
for public comment, and that period of public comment ends 
shortly, this week, I believe. So we will have to review the 
comments that have come in. So far we have received only one 
comment on it. We will have to assess at that point and decide 
whether or not if that makes sense to proceed with a notice of 
proposed rulemaking in response to the petition, which is 
principally sponsored by the Shipbuilding Association of 
America, and we will see where we go from there.
    I would point out that last fall, or last August actually, 
the Fourth Circuit Court of Appeals issued a decision in a 
hotly litigated case concerning a foreign rebuild, and that 
case essentially sustained our current regulatory scheme.
    The Coast Guard is very supportive of the Jones Act scheme 
that Congress has given us to enforce in how we document 
vessels, but at the same time one of the things that we have 
seen over the years, and particularly in these recent cases--
and there were two cases that were litigated recently--is that 
these regulatory schemes are very difficult to construct in a 
way that is equitable and understandable by industry and then 
to actually make it work. So in terms of changing the current 
regulatory scheme, that is something we need to approach very, 
very carefully, and we will be doing that once the comment 
period closes.
    Mr. Coble. Thank you, Mr. Lederer.
    I have one more question, and then I will recognize Mr. 
Larsen.
    Admiral, the FAA and other Federal agencies allow private 
physicians to conduct examinations of licensed workers, such as 
airline pilots, and then determine if the worker meets the 
medical fitness requirements to be licensed by the Federal 
agency. The Coast Guard, however, I am told, has chosen to put 
in place a system in which a government health care bureaucrat 
does not conduct the medical examination of the worker, but 
nonetheless makes the medical fitness determination.
    My question, Admiral, is why does the Coast Guard follow 
this process when other Federal agencies rely on the expertise 
of private physicians who have actually examined the worker in 
question to make final fitness determinations?
    Admiral Cook. Mr. Chairman, if I could start from--in our 
authorization act, we now have the authorization for a medical 
advisory committee, and that is going to be their first task. 
We have just gotten the appointments approved through the 
Department, and the Medical Advisory Committee will be meeting 
this summer.
    But if I could--and then I will go back and put it in 
perspective--we used to do all of the licensing through our 17 
regional exam centers. We did not have a true medical component 
represented in each of those regional exam centers, so we had a 
wide variety of decisions that were being made based on 
mariners visiting their own doctors and making recommendations. 
So we thought that in centralization, as we have done with the 
National Maritime Center, that we would provide medical 
expertise to provide consistency across the Nation in 
continuing that practice, and we thought that that would lead 
to a significant improvement.
    And I think it has led to improvement as far as 
consistency, but what it has demonstrated is that the other 
modes that you have mentioned have something very viable in 
their program as they look at national consistency. So we are 
going to put it up to our Medical Advisory Committee and ask 
them to help us find a way to get to that solution. And in the 
interim we will continue to use our government doctors.
    We have added and we have a very significant staff now of 
three medical doctors, six physicians assistants all reviewing 
these. They are getting much more--I would say they are very 
agile now in discussing cases with the mariners' doctors. So 
there is a number of hopeful signs even within the current 
system, but we do think that ultimately the registry of doctors 
will be the solution, and we will be working towards that.
    Mr. Coble. Thank you, sir.
    And I will recognize the distinguished gentleman from 
Washington Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Lederer, lawsuits challenging proposed regulations are 
quite common, certainly at Federal regulatory agencies. For 
example, EPA has over 600 active lawsuits. NOAA has nearly 200 
pending. U.S. Fish and Wildlife reports over 100 lawsuits filed 
against the agency. How many lawsuits have been filed in 
Federal court challenging a proposed or final rule published by 
the Coast Guard?
    Mr. Lederer. Sir, the last time we had a lawsuit 
challenging a regulation itself was a challenge to the MTSA, 
Maritime Transportation Security Act, provisions concerning 
searches or searches that were conducted pursuant to those 
regulations in 2006.
    We have no pending cases, and we have very few cases that 
challenge regulations directly. We have some litigation from 
time to time that will challenge application of regulations, 
such as the recent first circuit decision in the last couple of 
weeks involving the regulated navigation area in Buzzards Bay 
off of Massachusetts. But that is again how we actually apply 
regulations. So we don't, fortunately, have the same experience 
other agencies like EPA does where policymaking is done to a 
large degree through litigation. And we have no cases currently 
pending challenging any regulations.
    Mr. Larsen. It sounds like you said one.
    Mr. Lederer. One, sir, yes.
    Mr. Larsen. Thank you. I think that does show the work that 
the Coast Guard does with the industry partners to try to craft 
something, and sometimes they are pretty tough, but the 
industry partners make their way through it as well.
    In my opening comments, I mentioned TWIC. And as part of 
last year's authorization, the Coast Guard, Congress included 
section 809 to clarify the requirement to carry a TWIC card 
would not apply to licensed captains of passenger vessels who 
are not required to have a Coast Guard security plan, or to 
persons holding a Coast Guard document who are not authorized 
to have unescorted access to a designated secure area of vessel 
or the facility.
    It has been 7 months since that provision became law, but 
nothing has happened. Furthermore, it is my understanding that 
the Coast Guard's National Maritime Center is still telling 
mariners they need to get a TWIC before they can be issued 
Coast Guard credentials.
    Mr. Lederer, is it the Coast Guard's interpretation of this 
provision that it is self-executing?
    Mr. Lederer. Sir, our belief is that it is not self-
executing, and that does require a rulemaking because of the 
structure of the original Maritime Transportation Security Act 
as the basis for it.
    Mr. Larsen. So the next question is when does that start? 
When does the rulemaking start? Why is there still confusion 
out there among mariners?
    Mr. Lederer. If I may defer that to Admiral Cook.
    Admiral Cook. Mr. Larsen, I think that the fundamental 
issue is our need to have mariners enroll and provide their 
identification information so we can do safety, suitability, or 
in some cases security checks. So the system, in order to gain 
efficiencies, was revised so that the TWIC enrollment centers 
would be the location where that would be done.
    I know I am doing a retrospective, but eventually I will 
get to the point.
    So we now have 130-some enrollment centers versus 17 
regional exam centers where mariners can go, and the equipment 
that we were using at that time, even when the TWIC enrollment 
center was being stood up, was not really compatible with our 
new electronic way of producing mariner credentials. So that is 
a key input to our system, the information is gained, the 
picture that is taken at the enrollment center, those items.
    So what we are trying to do is to move forward in kind of a 
three-stage way: first, some policy relief where we think we 
have the ability to do that, and it is being closely 
coordinated with TSA and with the Screening Coordination Office 
at DHS. The direction of that policy would enable mariners who 
already have been enrolled in TWIC, they wouldn't have to 
revisit an enrollment center. They could just get a new 
credential if they serve on a vessel that doesn't have a 
security plan. So, for example, a small passenger vessel 
captain, when his TWIC expires, he can still go ahead and get a 
new credential. It wouldn't be required. But if we added 
somebody new into the system where we don't have that baseline 
information security, we still need them to go to the 
enrollment center and provide that information so that we can 
issue their initial transportation worker identification card. 
So there is some relief, but, you know, not as much as we would 
like as far as providing instantaneous relief.
    And then we wanted to look at the cost that the mariner 
incurs. We are going to consider whether we can reduce some of 
that cost through regulatory changes. And, of course, those 
have to be approved all the way through. We would like to do 
that.
    And then there has to be a fundamental change of 
regulations with TSA so that the enrollment center can become a 
more versatile place that enrolls people for different 
purposes, charges fees that are appropriate.
    It is really a three-staged approach, the policy relief 
that we can give for folks that are already in the system; 
regulations that we will try to promulgate which will impact 
and reduce costs; and then thirdly, a more comprehensive 
regulation package which would provide the ability to hit the 
various levels of enrollment.
    Mr. Larsen. That is fine. But I am sure you can understand 
the gist of my question being some of frustration being 
reflected back to us from mariners about the uncertainty here. 
And the point being, it has been 7 months since the provision 
has been passed, but what has been done since in order to 
decrease some of the uncertainty that the lack of regulation 
has caused to the industry? From what I hear you saying is that 
you have a plan. I am even more excited to see that get 
implemented.
    Admiral Cook. I understand that, Congressman. I certainly 
understand the committee's impatience.
    Mr. Larsen. Mr. Chairman, I see other Members here, and I 
didn't have a clock on, so I will yield back to you. I have 
another set of questions for the second round.
    Mr. Coble. Admiral, if you would pull that mic a little 
closer to you.
    We have been joined by the distinguished gentleman from New 
Hampshire and the distinguished gentleman from Maryland. I 
think Mr. Cummings came in first.
    Mr. Cummings, do you have any questions?
    Mr. Cummings. Thank you very much, Mr. Chairman. Thank you 
all for calling this hearing.
    Admiral Cook, I apologize for not being here earlier. I am 
now the ranking member of a full committee, so it gets kind of 
busy here.
    According to documents provided by the minority staff, the 
Coast Guard published 26 rulemaking documents in fiscal year 
2010. These documents pertain to 18 separate rulemaking 
projects. Utilizing the funding increases of additional 
personnel allowances provided to it in fiscal years 2008 and 
2009, increases which I strongly supported, the Coast Guard 
reduces regulatory backlog by 35 percent, and that is pretty 
good. While the Service has a pending backlog of more than 60 
rulemaking projects, that is far below the more than 90 pending 
projects back in 2007. I applaud your diligence in working 
through the backlog.
    Can you please comment on whether you now have the staff 
and resources necessary to work through the remaining backlog 
and to begin to tackle the rulemakings required by the 2010 
Coast Guard authorization as well as cruise vessel safety 
legislation?
    Admiral Cook. Good morning, Congressman. I am disappointed 
also that you weren't here for my opening remarks. As we are 
very, very thankful for the support that the committee gave us 
in 2008 and 2009, and especially for the regulation-development 
staff, which really has increased about 50 percent, up to 82 
full-time positions in addition to the various subject-matter 
experts that we bring in. So I think we are on a trajectory 
that will enable us to sustain that continued progress, sir. So 
I am confident that we have what we need in order to go ahead 
and meet the rules that you laid out.
    Mr. Cummings. Thank you.
    As you know, finalizing the towing vessel safety 
regulations required by the Coast Guard legislation in 2004 has 
long been a key priority for me. What is the status of that 
rulemaking process? Will the Coast Guard meet the October 15 
deadline for issuing the final rule, given that the deadline 
for the NPRM was not met?
    Admiral Cook. Congressman, the rule is now under review at 
OMB, and typically that signals the final stages for us. So if 
they stick to the 90-day review time that they typically take, 
we should see that rule back to us in July. So assuming that we 
don't have any additional work by nature of that review, we 
would see it published soon after that.
    Mr. Cummings. Well, one of the changes I am going to do is 
I am going to, of course, consult with our chairman and our 
ranking member to do what we used to do, and that is set some 
deadlines for these things so that we can bring you back. Maybe 
in November, if we are here, so that we can follow up on these 
things, because, as you know, when we set these deadlines, it 
seems like we get more done. So I will have to consult with 
them and see--you know, it is their committee, so we have to 
figure this out.
    Admiral Cook. Yes, sir.
    Mr. Cummings. One last thing. As you know, during the 110th 
and 111th Congresses, we closely examined how the Coast Guard's 
ability to carry out its traditional mission areas, such as 
marine safety, including both inspection and investigation 
activities and search and rescue, had been affected by the 
Service's assumption of significant homeland security 
responsibilities after the terror attacks of September 11, 
2001. Our examinations found that the Coast Guard's expertise 
in highly technical traditional missions had frequently 
suffered as the Service struggled to balance these many mission 
demands with an end strength that had not expanded to 
accommodate the increased workloads created by the new 
missions.
    Against that background I am deeply troubled by the 
findings of the Coast Guard's own post-Deepwater Horizon 
preparedness review, which indicates that many of the 
challenges we found, particularly in the marine safety program, 
also affect the Service's implementation of the environmental 
response mission. Thus, the report states, and I quote, ``It 
appears that the Coast Guard marine environmental response''--
``preparedness and response programs have atrophied over the 
past decade, possibly as a result of competition with program 
development and resourcing challenges to meet the Service's 
enhanced homeland security responsibilities.''
    It goes on to say, ``Additionally, the move to the Coast 
Guard's current Sector organization displaced the MER function 
from the legacy marine safety community into a new response 
community paired with law enforcement and search and rescue 
activities. This new construct created the unintended 
consequence of changing the existing MER community and placed 
many new people with little or no program experience into MER 
positions.''
    You see where I am going? Where are we? Because one of the 
things that I have said over and over again is that we cannot 
be lulled into a culture of mediocrity. There are too many 
people depending on us. And this is your own report. So I just 
want you to comment very briefly, and then I am finished.
    Admiral Cook. Well, Congressman, first off, I think the 
Coast Guard, we certainly are a learning organization. So the 
fact that we did that report and pointed out things we need to 
improve on, we are going to improve on it. A very concrete 
step, we are forming an incident management directorate within 
the headquarters. It is going to be headed up by a senior 
executive. That certainly demonstrates the organization's 
commitment to improving that area.
    We have also got some additional billets this year, I think 
it was 35, related to follow-on from Deepwater Horizon, but 
related for just incident management.

        CORRECTION: The Coast Guard was provided funding to 
        hire 20 additional billets in fiscal year 2011 for 
        marine environmental response and incident management 
        purposes. Additionally, 33 billets were funded to 
        support the marine safety program.

    So the message internally is received, and we are starting 
to redirect our resources in order to make sure that we have 
the response and incident management skills that we need.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Guinta. [presiding.] The gentleman from Minnesota Mr. 
Cravaack, do you have any questions?
    Mr. Cravaack. Yes, Mr. Chair, I do.
    First off, I would like to thank Admiral Cook for being 
here today and Mr. Lederer thank you for being here today as 
well, and thank you for all of the great service those in the 
Coast Guard provide us each and every day. Thank you, sir.
    First off with that, sir, Coast Guard regulations have a 
tremendous and a negative impact on Minnesota. Admiral Cook, as 
you well know, the Coast Guard is requiring fishing guides on 
nonborder landlocked lakes deemed navigable by the Coast Guard 
to obtain Federal Operator of Uninspected Passenger Vessels 
license, otherwise known as a Six-Pack. This is incredibly 
burdensome, a requirement on a wide range of tourism-related 
jobs. Basically you are making high schoolers go out and get 
these licenses.
    Now, unfortunately, I have been unable to find out exactly 
how much these Six-Packs cost these young people that are 
looking for summer employment. And you have got to remember, in 
Minnesota, the summer is about 3 months long. So it is a very 
short period of time that they are going to require these 
licenses. To me, this is extremely unacceptable.
    The other aspect is I am very interested, sir--let us 
comment on that, sir. Could you comment on the Six-Pack for us?
    Admiral Cook. Well, Congressman, a number of inputs 
regarding the TWIC have been received, and they are a 
fundamental piece leading to the Six-Pack license. When we are 
looking across the board, though, we need to validate both 
safety and security, and in doing so, we continue to look for 
refinements of that. And we are in the process of refining the 
TWIC requirements.
    But as far as the licensing, all we can offer--and we 
continue to work with the locals--is a restricted license, 
which makes it easier for them to obtain it, but not less 
costly.
    Mr. Cravaack. TWIC and the Six-Pack are completely 
different things, so realize that. But I would like to just 
focus on the Six-Pack. Where is the closest place--can you tell 
me where the closest place you can get a Six-Pack license in 
Minnesota?
    Admiral Cook. Well, they are all done through the National 
Maritime Center in West Virginia. And if we are going to get a 
restricted license, they can work with their local OCMI, but 
the actual document is produced in West Virginia.
    Mr. Cravaack. As I understand it, the closest place you can 
apply for actually a Six-Pack is like in Ohio. So you are going 
to have a 17-year-old kid that wants to be a fishing guide in 
the summertime have to go to Ohio to get a Six-Pack license. As 
I understand it, that is how this is supposed to work. If I am 
wrong, please correct me on that. But as I understand it, you 
are making a kid who is going to be a boat guide for less than 
six people--has probably been fishing that lake all his life--
go to Ohio to get a Six-Pack card.
    My time is quickly depleting. But one of the big things I 
want to know, sir, is why has the Coast Guard all of a sudden 
in March, I guess, of last year decided to make Lake Mille Lacs 
now a navigable water when it is an inland lake and has had no 
Federal jurisdiction on those waters since God created it? 
Could you explain that, sir?
    Admiral Cook. Congressman, I understand that it was 
reviewed again recently, and it has historically navigable 
roots, and nothing has changed that. I know Mr. Lederer may 
have the background from a legal foundation standpoint, but 
essentially it had roots as a waterway. And the way the law 
goes----
    Mr. Cravaack. March 10 of last year, sir. Now you are 
putting Federal requirements on an inland lake, State lake, 
and, quite frankly, I find that a huge overreach of Federal 
authority on a State's rights. This is not a navigable water. 
This has been a fishing--it is a large body of water. But I 
find that to be unacceptable, and I have asked the Coast Guard 
to also comment on that as well. I have not received anything 
from the Coast Guard yet. You are placing Federal restrictions 
on a lake that is a State lake. It is totally landlocked. It 
does not have any title tributaries, any mention like that. I 
think this is a huge overreach of the Federal Government. 2010, 
that lake has been in existence since God created it, and all 
of a sudden the Coast Guard deems it a navigable water. Could 
you explain that?
    Admiral Cook. Sir, I would like to defer to Mr. Lederer. I 
know we have discussed this previously. There is a legal 
foundation for this.
    Mr. Lederer. Sir, very frequently, we are regularly around 
the country, there are bodies of water that may not appear to 
be navigable, the issue is raised to the local district. I 
don't know what triggered it in the case of this lake. But this 
does happen from time to time, and then the local district must 
then look very carefully, and does look carefully, at the 
historical use of the body of water, and a navigability 
determination is based upon that.
    My understanding is that the ninth district went through 
that process and came to that conclusion. The best I can tell 
you is that this is not unprecedented or unusual. And in terms 
of the Coast Guard's responsibilities, we have to take them 
very seriously.
    Mr. Cravaack. Mr. Chair, I am out of time, but I would like 
a second followup of questions later, sir.
    Mr. Guinta. Without objection, so ordered.
    Mr. Landry.
    Mr. Landry. Thank you, Mr. Chairman.
    Admiral Cook, with respect to your rules regarding a notice 
of arrival, could you tell me--I had sent a letter over to the 
Coast Guard concerning a notice of arrival, and a lot of my 
supply vessel owners are having difficulty trying to understand 
exactly what the official position is, I guess, of the Coast 
Guard. You all do a tremendous job down in Louisiana in 
regulating our offshore supply vessel industry. They always 
have compliments for you all. And it seems from the 
correspondence that I have gotten back and forth from you all 
and from industry, that this is an issue that you all agree is 
an unnecessary burden to the industry.
    So I was wondering how you can take a step forward in 
showing the rest of these agencies around this city how you can 
take a regulation that is causing industry some pain, causing 
you some pain, and just clearing it out once and for all? Could 
you update me on that?
    Admiral Cook. Congressman, first off, the SAFE Port Act 
required us to institute the notice of arrival on the Outer 
Continental Shelf, consistent with other notice of arrival 
requirements that we have. So we went through the standard 
rulemaking process, and we did not receive any adverse comments 
to that docket, so we anticipated that the offshore industry 
would be ready for that.
    The reason that the Coast Guard looks at the rulemaking as 
a benefit is that it provides safety and security situational 
awareness for us, or maritime domain awareness out on the Outer 
Continental Shelf. But since the rule was published, the 
Offshore Marine Safety Association also came to us and asked us 
to reconsider different ways we could implement it that 
wouldn't be burdensome to them, but would also provide us the 
additional maritime domain awareness that we think is important 
both from a safety and security standpoint. So we are working 
currently with OMSA to do that.
    Mr. Landry. How did you go from regulating foreign vessels 
to become a regulation against domestic vessels as well? It 
seems to me from the discussions that I have had, the way the 
regulation is set up, it is nearly impossible for our industry 
down in the gulf to comply with because they are going back and 
forth so often.
    Admiral Cook. Congressman, the U.S.-flagged vessels are 
exempt if they are--suppose they are leaving Port Foshan and 
are going out to work in a block and then coming back, there is 
no reporting required then. But there is reporting required 
when they go from block to block. And I think that is the point 
at which the industry is saying they can anticipate those 
moves. But the legal fundamentals were there to bring in other 
OSVs in order to accomplish the full visibility.
    Mr. Landry. Mr. Lederer?
    Mr. Lederer. Mr. Landry, the only thing I would add to that 
is that the SAFE Port Act requirement was to complete the 
rulemaking, and it did specify foreign vessels. The way we 
looked at that was that these notice of arrival provisions had 
to fit within the fabric of the notice of arrival regulations 
that we had at the time, because, again, in terms of protecting 
maritime security as well as marine safety, we need to have 
full maritime domain awareness. So we are relying not just on 
the SAFE Port Act provision, but on a preexisting Ports and 
Waterways Safety Act provisions that are the support for the 
preexisting notice of arrival regulations.
    So the bottom line is that we were working on our 
preexisting legal authorities to develop a notice of arrival 
scheme that would work across the board.
    Mr. Landry. How are we going to fix this problem? Because 
my mariners, I think, have always upheld themselves to work 
very well with the Coast Guard, and they are just saying this 
is simply something that they can't comply with, and I agree. 
The traffic on the Gulf of Mexico amongst those offshore supply 
vessels is heavy. I mean, it is outstanding. I really wish we 
would bring this thing to a head so that we can just continue 
to move forward in the work that they have to do down there 
without having to worry about an unburdensome regulation that 
no one can comply with and you can't enforce.
    Admiral Cook. Congressman, I will commit that we are going 
to continue to work with OMSA, and we have a formal 
partnership, and we have a charter for this particular group. 
So it is recognized on both sides as an issue that needs to be 
resolved.
    Mr. Landry. Thank you.
    Mr. Guinta. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral Cook, to the ballast water rule, the one major rule 
presently under consideration would amend the Coast Guard's 
existing regulations on ballast water management. What is the 
timetable for completion of this rulemaking at this point? Is 
it possible to develop new standards that are technically 
feasible, economically viable, and environmentally effective?
    Admiral Cook. Congressman, if I could briefly answer that 
and then also ask Mr. Lederer to join in on part of the 
response.
    Mr. Larsen. Absolutely.
    Admiral Cook. The timeline is certainly complicated by the 
technical nature of what we are trying to achieve and whether 
that technology actually exists and can be employed in the 
marine environment. So that makes it doubly challenging to 
commit to a timeline in addition to any of the administrative 
reviews, because there were--after we published the notice of 
proposed rulemaking, there were comments in the thousands. From 
500 or 600 individual commenters, there are 2,000 or so 
comments. There is a wide range of opinions, and then beyond 
that there is also a range of scientifically supportable 
information that we have to factor into our overall rulemaking.
    Mr. Lederer. Sir, with respect, there is a short answer and 
a long answer. I will give you the short answer in terms of 
just the timing. I think we are well positioned right now with 
respect to getting this out. Really a remarkable amount of 
discussion that has gone on within the executive branch to move 
this rule forward, and it has been very productive. So, one, 
more probably discussion on this rule than any I can recall in 
the last several years, and productive discussion. I think we 
have a way ahead, and I think you are going to see something 
published in the next several months.
    Mr. Larsen. I will certainly task the staff to track that 
as well.
    Mr. Chairman, am I on the clock or not? I want to clarify.
    Mr. Guinta. You are not on the clock, but I will allow you 
to continue.
    Mr. Larsen. Thank you. I will try to be expeditious then.
    With regards to vessel weight and stability requirements, 
the Coast Guard recently amended its regulations governing the 
maximum weight and passenger capacity on vessels. It is my 
understanding that some boat operators have expressed their 
concerns these new requirements have reduced the number of 
passengers allowed onboard, and that, in turn, could impact the 
profitability of their operations, thereby fitting right into 
the concerns of the heading of this particular hearing.
    So, Admiral Cook or Mr. Lederer, can you explain various 
factors that have been taken into consideration by the Coast 
Guard when it establishes new weight and stability 
requirements? And could a rule have met its intended goal to 
enhance marine safety if it had not considered a factor of an 
assumed average weight per person factor?
    Admiral Cook. Well, Congressman, really that is the central 
piece. We went back with our national centers for disease and 
also looked at some of the other scientific data that showed--I 
mean, just generally, people are bigger. And the only thing 
that we can do as far as providing stability on these vessels 
is to take into account the weight that is already there from 
the vessel and then how it might be positioned in terms of 
people as they are located in different locations. So we have 
made it as straightforward as possible to have simplified 
stability tests where we go out and witness the weights being 
moved around so that the industry doesn't have to go through a 
full inclining test, which is much more expensive. But 
ultimately, the amount of weight and where it is moved has to 
correspond to people and the growing size of Americans.
    Mr. Larsen. As uncomfortable as that might be to say, is 
that a consistent approach? Has that been a consistent approach 
regardless of the year? The same approach in 2005, same 
approach in 2000, same approach in 1995 that the Coast Guard 
takes to determine weight and stability requirements?
    Admiral Cook. The approach is consistent, although we had 
not raised the weight in a very large number of years. I can't 
recall the exact number of years, but we have gone from an 
average weight of 140 to an average weight of 185. But we have 
built into the standard such that we will continue to be tied 
into the national database, and if weight goes up or down for 
average Americans, the rule will adjust.
    Mr. Larsen. Mr. Chairman, I have one more question now, and 
then I will follow up, I am sure. But I will ask one more 
question now. And then, if you don't mind, we will go to the 
other Members, if that is all right with you.
    Admiral Cook, two provisions were included in last year's 
authorization act regarding the modification to oil spill 
emergency response activities and traffic management in the 
north Puget Sound region in Washington State, probably right 
outside my window. The first provision would expand the 
definition of ``higher volume port area,'' found in section 
155-1020 of the Coast Guard's regs, to now include the Strait 
of Juan de Fuca out to Cape Flattery. The second provision 
encourages the initiation of negotiations with Canada to 
require tugboat escorts for all laden tank vessels transiting 
the northwest straits region of Puget Sound. It would also 
require the Coast Guard to issue recommendations for the full 
range of options for the management of maritime traffic and to 
enhance spill prevention and response systems.
    So what is the status of the Coast Guard's efforts to 
implement these provisions? And has the Coast Guard revised its 
definition of ``higher volume port area'' as required?
    Admiral Cook. Mr. Larsen, I would like to be able to take 
that back and give you a detailed answer for the record, if 
that would be acceptable to you, sir.
    Mr. Larsen. That would be acceptable.
    Mr. Larsen. What would be the timeline in terms of how soon 
you can get back with an answer?
    Admiral Cook. I will get back to you by the middle of June.
    Mr. Larsen. The middle of June. How about June 15? That is 
my birthday on June 15.
    Admiral Cook. June 15 it is, sir.
    Mr. Larsen. Great. Thank you.
    [The information follows:]

        The Coast Guard has initiated the rulemaking proceeding 
        required by section 710 of the Coast Guard 
        Authorization Act of 2010 to change the definition of 
        the ``higher volume port area'' in the Strait of Juan 
        de Fuca. The Regulatory Identification Number is 1625-
        AB75.

        The Coast Guard continues ongoing preparedness and 
        response efforts with Canada under the Canada-United 
        States Joint Pollution Contingency Plan and 
        geographical annexes. For example, there is a pollution 
        response exercise planned in June 2011 in Seattle that 
        will focus on international cooperation. Additionally, 
        in August there is a national level convening planned 
        for the Joint Response Team, which will include 
        regional participation and address national and 
        regional issues.

    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Guinta. Thank you.
    Before I go to the next Member, Admiral, thank you very 
much for being here.
    And I had a quick question regarding the fishing vessel 
safety rulemaking. My district of New Hampshire is greatly 
impacted by any type of new or additional regulatory 
requirement placed on the industry. While we all agree that 
safety needs to be foremost in our minds, I wanted to follow up 
with you about the authorization act, section 604, regarding 
dockside fishing vessels requirement undergoing the safety 
examination every 2 years. The first question I have is this: 
Are you able to complete it by October 2012?
    Admiral Cook. A lot of it will depend, Congressman, on how 
the industry comes back to us. For example, you know, we have a 
program now that has voluntary exams, and probably in the 
neighborhood of 8,000 of those done each year. We anticipate 
that--although we don't know for sure whether--the exact number 
of vessels that are going to fish 3 miles beyond the boundary 
line, so we anticipate that will be about 30,000 to 35,000. So 
just as kind of a test bed, we have done a lot of outreach, and 
then we have seen how many more voluntary exams we have gotten. 
So since we started the outreach in October, we have only got 
really about a 10-percent increase in the number of voluntary 
exams.
    So I think it is going to be difficult to get the industry 
to the table. Our regulatory experience in significant 
rulemakings like this or changes in the dynamics of the way an 
industry is regulated is that they will wait until very near 
the end of a perceived deadline. So I think the challenge is 
going to be more from the industry side in getting them lined 
up so that we can do a systematic dockside safety program.
    Mr. Guinta. And if you are not able to complete all fishing 
vessels by that date, what would occur at that point? Would you 
prevent those vessels that had not been inspected from going 
out? Or how would you interpret the law in that sense?
    Admiral Cook. Congressman, I think, rather than give you 
like a very definitive answer like that today, what I would 
like to do is just commit to being in contact with the 
committee staff and let you know how it is going so that maybe 
you can help us avoid a situation like that where it is a 
showdown. But ultimately, if they are not in compliance with 
the law, that would be really the only sanction that we could 
provide is that they wouldn't be able to go out and fish.
    Mr. Guinta. Assuming both sides are diligently trying to 
meet this deadline, and just due to the number of vessels we 
have and the resources that you have doesn't allow us to meet 
that deadline, would it be appropriate for us to consider an 
extension?
    Admiral Cook. I think an extension would enable us to be 
able to put in a more systematic way to reach the final goal.
    And as an added comment, this is a very significant thing 
to bring an industry in that has not previously been, in 
quotes, ``inspected,'' although this is called a compliance 
exam. So if you look at what we are doing with the towing 
vessel industry, we have a full bridging program that is based 
on voluntary examinations, and that is because those towing 
vessel organizations are just a little bit more systematically 
organized under the American Waterway Operators, who provided 
us that opportunity.
    But we need some kind of parallel structure that enables 
the fishing community to be more comfortable with the Coast 
Guard coming down, and our Coast Guard compliance inspectors 
understanding a lot of the issues that are facing the fishing 
vessel community as far as the particulars of their vessels, 
the different types of installations that are on the ships. So 
if there was an additional time, we would be able to develop a 
more systematic program.
    Mr. Guinta. Thank you very much, sir.
    Mr. Harris, do you have any questions?
    Dr. Harris. Thank you very much, Mr. Chairman, and thank 
you very much, Admiral Cook, for coming before the committee.
    Channel buoys probably aren't your shop, but maybe you can 
get word back to them we are waiting for those channel buoys in 
Rock Hall Harbor to get moved so that we can get our tourism 
business going for the deep-draft vessels.
    Anyway, Admiral Cook, does the mariner medical fitness 
determinations, does that come under your jurisdiction in the 
rules? Let me ask you a question. Could you just outline to 
me--because my understanding is that it is conducted 
differently from FAA and highway folks how they do the medical 
examinations and get someone determined to be fit. How does the 
Coast Guard do it?
    Admiral Cook. Congressman, the way we do it is that the 
mariner goes to their own doctor and then provides that 
information to a medical review staff in our centralized 
mariner evaluations in West Virginia.
    What I would say, the thing I guess that I also want to add 
to the answer, is that we just got authorized for a mariner 
medical advisory committee from the authorization act, and we 
have just now gotten departmental approval for membership. And 
that is going to be a prime tasking for that advisory committee 
to help us look at how we can bring the Coast Guard to view the 
physical exams, kind of a registry of doctors, the way the FAA 
does in particular. We like the way they do it.
    But the reason that we are using the current system goes 
back to the legacy of the 17 RECs all doing things differently, 
and we thought by centralizing and providing a robust medical 
staff that we could eliminate a lot of those issues. And many 
of them we have, but we still see that further progress could 
be made if we were to go down a different route.
    Dr. Harris. So when you say the medical staff, what is the 
level of the person who is making that determination? The 
centralized person.
    Admiral Cook. The head doctor is an occupational medical 
doctor.
    Dr. Harris. I know. But that doctor is not reviewing every 
examination, I take it; is that right?
    Admiral Cook. There are three medical doctors, six 
physician's assistants, and then some medical techs. So it is a 
staff of just over 20.
    Dr. Harris. Staff of over 20. And what you are suggesting 
is that you might go the way of the other administrations and 
actually just have a register of physicians whom, if they sign 
off on the individual, then they don't have--you can kind of 
eliminate a lot of those 20 staff, I take it?
    Admiral Cook. Well, some of them, sir. But the challenge 
would be--you really have to do a lot of audits in a case like 
that. And FAA has a full staff of doctors on the FAA staff that 
go out and audit their registry of doctors to make sure that 
they are complying with the rules as the FAA understands them.
    Dr. Harris. But you are willing to look into that other 
option and actively investigate that?
    Admiral Cook. We are.
    Dr. Harris. Well, thank you very much, Admiral, again for 
appearing before the committee and getting word back about Rock 
Hall.
    Thank you very much, Mr. Chairman.
    [The information follows:]

        The channel buoy in Rock Hall Harbor was moved on June 
        1, 2011.

    Mr. Landry. [presiding.] Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chair.
    Sorry to belabor this, but, Mr. Lederer, can you tell me 
how much a Six-Pack costs?
    Mr. Lederer. I cannot, sir.
    Mr. Cravaack. OK. Can you tell me, a Minnesota kid goes up 
to be a fishing guide for 3 months in the Mille Lacs Lake, 
where he needs to go to get a Six-Pack license?
    Mr. Lederer. I cannot, sir, but we will get that 
information to you.
    [The information follows:]

        In accordance with the regulations in Title 46 Code of 
        Federal Regulations 10.219, the fees associated with 
        obtaining an original Merchant Mariner Credential with 
        an officer endorsement as operator of uninspected 
        passenger vessels (OUPV) are:


------------------------------------------------------------------------

------------------------------------------------------------------------
Evaluation fee.............................................        $100
Examination fee............................................         $95
Issuance fee...............................................         $45
                                                            ------------
  Total....................................................        $240
------------------------------------------------------------------------


        Other costs incurred by an applicant associated with 
        obtaining an endorsement as OUPV include:


------------------------------------------------------------------------

------------------------------------------------------------------------
TWIC Fee...................................................      $132.50
CPR/First Aid Training.....................................       $60
Physical Exam..............................................      $100
Drug Test..................................................       $49
------------------------------------------------------------------------


        Total costs associated with obtaining an original 
        credential as OUPV is $581.50 for a credential good for 
        5 years.

        Credentials issued by the Coast Guard expire 5 years 
        from the date of issue. Finally, costs associated with 
        the renewal of an endorsement as OUPV would include: 
        the evaluation fee; issuance fee; physical exam; and 
        drug test for a total of $244 for a 5-year credential.

    Mr. Cravaack. OK. I was told by a Coast Guard Toledo, Ohio. 
So we have got to get a kid from Minnesota to Toledo, Ohio.
    Can you tell me, do applicants need to pick up their 
license in person?
    Mr. Lederer. Let me pass that to Admiral Cook.
    Admiral Cook. They do have to pick it up in person, but it 
doesn't have to be back in Toledo.
    Mr. Cravaack. OK. Do you know, sir, where the closest Six-
Pack license place would be to apply for a license in 
Minnesota?
    Admiral Cook. Congressman, I would like to get back for the 
record to you, because we have a number of electronic features 
that we offer now, and I am just not sure whether the Six-Pack 
license falls under that or not.
    [The information follows:]

        If an applicant for an officer endorsement as operator 
        of uninspected passenger vessels has provided their 
        biometric and biographic information through a TWIC 
        enrollment center, they are able to apply for the 
        endorsement through the mail. They may apply in person 
        or through the mail to any of the Regional Examination 
        Centers, per 46 CFR 10.209(d).

        The two closest Regional Examination Centers to 
        Minnesota are those located in Toledo, Ohio, and St. 
        Louis, Missouri. For an original issued credential, an 
        applicant would need to travel to a Regional 
        Examination Center to take the appropriate examination, 
        unless they make alternative arrangements for a 
        traveling examination team to proctor the exam at a 
        closer location.

        TWIC enrollment centers are located in Duluth, 
        Minnesota, and Roseville, Minnesota.

    Mr. Cravaack. I was told they were not. So I was literally 
told that a kid from Minnesota has got to go to Toledo, Ohio, 
to pick up a Six-Pack. So just food for thought. That is where 
I am coming from.
    Admiral Cook. OK.
    Mr. Cravaack. Now, let us get back, Mr. Lederer, you told 
me that because of the historical use of the waterway was why 
Region 9 has gone ahead and deemed Mille Lacs Lake, right 
basically in the center of Minnesota, a navigable water. Can 
you expound upon that?
    Mr. Lederer. Only to say, sir, that the historical use of a 
body of water is a significant factor in making a navigability 
determination. I have not seen the ninth district opinion that 
I understand has been written concerning this, and I will be 
glad to do that when I get back to the office, and take that 
for the record if I could as well.
    [The information follows:]

        As a result of the increased focus nationwide on 
        passenger vessel safety including licensing of 
        operators of uninspected passenger vessels, the Ninth 
        Coast Guard District and Eighth Coast Guard District 
        determined they needed a navigability determination for 
        Mille Lacs Lake in Minnesota. Portions of Mille Lacs 
        Lake are in both Coast Guard Districts so the 
        navigability determination was coordinated between the 
        districts with the Eighth Coast Guard District actually 
        issuing the determination as the majority of the lake 
        is within its boundaries. The navigability 
        determination was made on March 3, 2010, with a copy 
        attached along with the supporting memo.

        The foundation for Federal authority and subsequently 
        Coast Guard jurisdiction over navigable waters of the 
        United States traces back to the Commerce Clause of the 
        Constitution and a series of cases decided by Federal 
        Courts, including the U.S. Supreme Court. Regardless of 
        the State or the waterway, the Coast Guard has applied 
        the same basic tests in determining navigability for 
        the past 50 years, with the exception of jurisdictional 
        issues involving the Clean Water Act which have 
        continued to significantly evolve. Our test is 
        published in the Title 33 Code of Federal Regulations 
        (CFR) Section 2.36.

        2.36 Navigable waters of the United States, navigable 
        waters, and territorial waters.
        (a) Except as provided in paragraph (b) of this 
        section, navigable waters of the United States, 
        navigable waters, and territorial waters mean, except 
        where Congress has designated them not to be navigable 
        waters of the United States:
        (1) Territorial seas of the United States;
        (2) Internal waters of the United States that are 
        subject to tidal influence; and
        (3) Internal waters of the United States not subject to 
        tidal influence that:
        (i) Are or have been used, or are or have been 
        susceptible for use, by themselves or in connection 
        with other waters, as highways for substantial 
        interstate or foreign commerce, notwithstanding natural 
        or man-made obstructions that require portage, or
        (ii) A governmental or non-governmental body, having 
        expertise in waterway improvement, determines to be 
        capable of improvement at a reasonable cost (a 
        favorable balance between cost and need) to provide, by 
        themselves or in connection with other waters, as 
        highways for substantial interstate or foreign 
        commerce.

        No Federal statute specifically addresses the 
        navigability of Mille Lacs Lake, and no Federal court 
        has made a specific determination of the navigability 
        of this waterway. The navigability determination is 
        based on the historical use of the waterway as a 
        highway for interstate commerce. In the late 1800s and 
        early 1900s, millions of feet of timber were towed 
        across the lake to the Rum River by steamboats. At the 
        time, the lake opened directly to the Rum River and the 
        timber was then floated down the river to various 
        sawmills. Consequently, in 1981, based upon the 
        historic use of the lake, the U.S. Army Corps of 
        Engineers determined that Mille Lacs Lake is a 
        navigable waterway of the United States. In 2010, the 
        U.S. Coast Guard (USCG) came to a similar conclusion.

        [GRAPHIC] [TIFF OMITTED] T6528.010
        
        [GRAPHIC] [TIFF OMITTED] T6528.011
        
        [GRAPHIC] [TIFF OMITTED] T6528.012
        
    Mr. Cravaack. The State of Minnesota has been in existence 
for 158 years, 153 years. So what I am trying to figure out is 
why all of a sudden now? Why all of a sudden is the Coast Guard 
coming in last year and deeming a body of water which is in the 
center of our State navigable waters when I--according to the 
records, I see no substantial--the word ``substantial''--
interstate and foreign commerce on the Lake of Mille Lacs. So, 
sir, you are going to definitely have to justify those words to 
me because, quite frankly, again, this is bureaucratic 
overreach on a State's lake. So could you explain, sir?
    Mr. Lederer. Sir, we will definitely get back to you on 
that.
    Mr. Cravaack. Thank you very much. And with that and high 
hopes of hearing back, I yield back, sir. Thank you.
    Mr. Landry. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral Cook, Congress passed the Cruise Vessel Safety and 
Security Act last year to enhance the safety and personal 
security of all U.S. passengers aboard cruise ships. The Coast 
Guard was directed to develop regulations to implement several 
important provisions of this law, yet statutory deadlines have 
come and gone, and proposed rules have yet to appear.
    When can we expect to see the Coast Guard publish a notice 
of proposed rule on the Cruise Vessel Safety and Security Act?
    Admiral Cook. Congressman, I want to assure you that we are 
working hard on that one and coordinating with the FBI and some 
other interagency coordination that we think is essential to 
the foundation of that rule. And it is our desire to have 
something published by the end of the year.
    Mr. Larsen. By the end of the calendar year?
    Admiral Cook. Calendar year, yes, sir.

        CORRECTION: The Coast Guard plans to publish the notice 
        of proposed rulemaking on cruise vessel safety by the 
        end of 2012, not 2011 as implied in the witness' 
        response.

    Mr. Lederer. And, Mr. Larsen, if I could also add, tomorrow 
there is a notice that will be going out to the public seeking 
available technologies, so you will see a publication in that 
respect in terms of forward motion.
    Mr. Larsen. So that will be a step forward. But what steps 
is the Coast Guard taking with the FBI or any other law 
enforcement agencies to ensure that reporting and enforcement 
actions will be seamlessly coordinated? Have the agencies 
entered yet into any agreements that clearly articulate 
responsibilities and lines of communication?
    Admiral Cook. I am not aware of any formal agreement on 
that yet, Congressman, but I would anticipate, just the normal 
context of how we do business, it will be codified when the 
rule comes out.
    But from what I have been told by my staff, the FBI is 
working with us as a good partner, and they understand that 
that part of where U.S. citizens go out on cruise ships, you 
know, hasn't really been charted very well before, and it is 
important to them to get it right, too. So I think you are 
going to see fruits of good cooperation and a rule that is both 
enforceable from a cruise ship standpoint and something that is 
meaningful from a law enforcement standpoint back here.
    Mr. Larsen. Well, you know that in the past we have had 
hearings both in the subcommittee and in the full committee on 
the issue of cruise vessel safety and security, and members of 
this full committee and subcommittee who are extremely 
interested in seeing progress being made on this issue.
    Admiral Cook. Yes, sir. I think this is one where the 
progress is behind the scenes, but it is real.
    Mr. Larsen. All right. Well, we will look forward to that 
end-of-the-calendar-year movement. Thank you.
    Mr. Landry. Admiral Cook, I want to go back to my issue on 
the--that I talked about earlier, and I want to make sure that 
all of my colleagues understand the problem that we are having. 
I really enjoy pizza. I am a big pizza guy. I eat it all the 
time. I order it, the delivery guy. You have used pizza 
deliveries before, I am sure? All right. OK. Do you think that 
this morning if you called up your favorite pizza parlor, if 
you called the guy that delivers the pizzas to you, if he could 
tell you where he would be delivering pizzas to, you know, in 
case maybe you wanted one at your house?
    Admiral Cook. I don't think he could do that, sir.
    Mr. Landry. OK. That is the problem we are having in the 
Gulf of Mexico. You see, those supply vessels, it is hard for 
them to be able to forecast where they are going to be in that 
24-hour window in order to make that reporting to the Coast 
Guard. It is not like a vessel coming in internationally which 
they know what ports it is going to, where the cargo is going 
to be unloaded, what cargo is going to be loaded onto it, and 
then leaving the country again. We have hundreds of vessels 
going back and forth from various ports all up and down the 
coast of Louisiana. So that I just wanted to make sure you 
understand the gravity of the problem.
    Do you think that we can fix this through the regulatory 
process, and that we don't need to fix it legislatively?
    Admiral Cook. Well, we would like to be able to fix it 
through the implementation of the regulation. I don't know if 
Mr. Lederer has any comments about that. No.
    Mr. Landry. So the regulatory fix is certainly more 
conducive than a legislative fix, because we would probably get 
it wrong up here, I am guessing.
    Admiral Cook. Well, I think in this case, Congressman, 
since we are aligned with OMSA in working this--you know, we 
are not aligned exactly what the solution is yet, but we are 
aligned that we both need to work on it. I think it would be 
fair to give us a good chance in the regulatory arena first.
    Mr. Landry. OK. Great.
    Just one last thing. Could you provide for the record, just 
supplement, a list of the Members that have inquired about 
notice of arrival and when they may have made any inquiries so 
I can try to figure out who our friends are out there?
    Admiral Cook. We will do that, Congressman.
    Mr. Landry. OK. Thank you so much.
    [The information follows:]


------------------------------------------------------------------------
             Member                Request Received          Notes
------------------------------------------------------------------------
Sen. Mary L. Landrieu...........  May 25, 2011......  Question for the
                                                       Record following
                                                       Secretary
                                                       Napolitano's May
                                                       25th hearing
                                                       before the Senate
                                                       Committee on
                                                       Appropriations.
Rep. Don Young..................  May 24, 2011......  Engaged RADM Cook
                                                       and Mr. Calvin
                                                       Lederer in a
                                                       discussion
                                                       regarding OCS
                                                       Notices of
                                                       Arrival during
                                                       the same hearing.
Rep. Jeffrey M. Landry..........  March 15, 2011....  Letter citing
                                                       specific concerns
                                                       with the Coast
                                                       Guard's published
                                                       regulation for
                                                       Advanced Notice
                                                       of Arrivals on
                                                       the U.S. Outer
                                                       Continental
                                                       Shelf.
Sen. David Vitter...............  July 21, 2010.....  Question for the
                                                       Record following
                                                       ADM Papp's July
                                                       21st hearing
                                                       before the Senate
                                                       Committee on
                                                       Commerce,
                                                       Science, and
                                                       Transportation.
Rep. Frank A. LoBiondo..........  June 22, 2010.....  Letter regarding
                                                       the rulemaking
                                                       project for
                                                       Notice of
                                                       Arrivals on the
                                                       U.S. Outer
                                                       Continental
                                                       Shelf.
Rep. Elijah E. Cummings.........  June 22, 2010.....  Letter regarding
                                                       the rulemaking
                                                       project for
                                                       Notice of
                                                       Arrivals on the
                                                       U.S. Outer
                                                       Continental
                                                       Shelf.
Rep. Elijah E. Cummings and Rep.  June 17, 2010.....  Both Congressmen
 Frank A. LoBiondo.                                    engaged RDML Cook
                                                       in a discussion
                                                       regarding OCS
                                                       Notices of
                                                       Arrival during
                                                       the hearing held
                                                       this date.
------------------------------------------------------------------------


    Mr. Landry. The chair now recognizes the Honorable Don 
Young.
    Mr. Young. Thank you, Mr. Chairman. It is such an honor to 
see you sitting there. I think you have probably inquired in my 
main interest.
    Where did this regulation proposal come from, as far as the 
ships that go across 4 and 5 different--14 different plats? 
Whose bright idea was it?
    Admiral Cook. Well, Congressman, I will just say that it is 
rooted--the reason for the rule is rooted back in the SAFE Port 
Act and a requirement to align----
    Mr. Young. I wrote that rule. I was chairman of this 
committee, and that was to be applied only to foreign vessels 
that are in ports, never to the oil industry, the crew vessels, 
et cetera. Now, where did it come from?
    Admiral Cook. In trying to align it with the notice of 
arrival requirements that were already standing in our 
regulations, which was another part of the task.
    Mr. Young. Wait a minute. I am being argumentative right 
here, but never in the discussion that we wrote that bill was 
it to be applied to cruise ships, et cetera, that were doing 
the oil industry's work. Never. Now, if you want to bet on 
that, I will bet $1,000 right now. Now, where did it come from?
    The Coast Guard is getting like the other agencies now. You 
have got these little minions down there doing this type thing. 
Now, why was it put in there?
    Mr. Lederer. Sir, I can't tell you whose brain it came out 
of, but I can tell you that as we sit here today in 2011, and 
having talked with OMSA about the impact of it, the Coast Guard 
as an entity saw that rulemaking as part of the fabric of our 
notice of arrival system across the country, and that was an 
area that we thought was a gap that needed filling. And the 
SAFE Port Act language urged us to complete the rulemaking.
    And, yes, it did say ``foreign vessels,'' but the 
rulemaking that we were working on was broader than that and is 
based on the Ports Waterways Safety Act, consistent with our 
notice of arrival fabric that we have across the country, 
because the gulf was a major gap both for maritime security and 
for safety.
    Mr. Young. If I am not mistaken, you know, you had to go to 
the TWIC program, right? Who are you protecting us from? Every 
crewman is already cleared by the Coast Guard. I mean, do you 
know how hard it is to get a TWIC card?
    Mr. Lederer. Yes, sir.
    Mr. Young. Very hard. And you made it harder, especially in 
Alaska. Yet now you are going to have a ship that is trying to 
do the job.
    See, my frustration--and I am a big supporter of the Coast 
Guard. I don't believe you should be in this business. I really 
don't. You have the TWIC. You have made sure these people can 
turn around and get cleared. And now you are imposing, as 
agencies have done in this administration, imposing the 
restriction on the development of our fossil-fuel industries. 
Now, tell me where is the justification for it? I mean, who is 
the threat here?
    Mr. Lederer. Well, sir, the distinction is to be drawn 
between somebody, an individual mariner who holds a TWIC, and 
vessels that are operating in the Gulf of Mexico.
    Mr. Young. You clear that vessel. You have to clear the 
vessel.
    Mr. Lederer. I am sorry, sir?
    Mr. Young. You have to clear the vessel before it sails, 
right? But you can't have him clear when he crosses. Like you 
say, I am an oil rig, and I need some work right now. I need 
somebody to service me right now. He doesn't know that, the guy 
running the ship. He has got to notify you 24 hours ahead of 
time? How are you going to do that?
    Mr. Lederer. Sir, before you came in, we were discussing 
with Mr. Landry that question of how do we operationalize it, 
and I will defer that back to Admiral Cook. But the notion of 
having maritime demand awareness within the gulf to know who is 
there who is supposed to be there and who isn't there who isn't 
supposed to be there is what we are trying to get at there. And 
it is a significant concern. And we can see the kinds of things 
that happen in looking at Deepwater Horizon in terms of if an 
evildoer was to get to a rig, and I think that is the concept 
behind it. And so that is what we are trying to get at.
    Mr. Young. Don't say ``try.'' Let us do it, because I don't 
want to impose this type of restriction when I am on a rig and 
I need help right now, and he owns the ship, and he has to 
notify you 24 hours or he could be possibly fined. You see the 
ridiculousness of the situation? They are there to service the 
rigs.
    So I still want to know what brainchild--there is no 
pregnancy without somebody being involved. Where did it come 
from? I would like to find out--in fact, I will make that an 
official request. What brainchild in the Coast Guard did it 
come from? Because that shows, for me, a lack of knowledge of 
what the industry is doing. That is my concern.
    You know, we charge you with search and rescue and drug 
interdiction, et cetera, and now you are involved, and I don't 
see how you can possibly do it unless you change the 
regulation, or the proposed regulation. I don't see how you 
have the manpower to do it, especially with this type of budget 
we are facing right now. I want you to put money in something 
that does the service that is necessary, and I don't believe 
this is necessary.
    Mr. Chairman, I am over my time right now, but, you know, 
just do me a favor, guys. Don't get caught into this bogged-
down EPA, Corps of Engineers, the rest of this. We have got to 
get this country back on the role of industrial might again, 
and then we are stopped by regulations that do no good for 
anybody. You don't need to do that. You are a better agency 
than that.
    Thank you, Mr. Chairman.
    Mr. Landry. All right. Are there any other further 
questions?
    I would ask unanimous consent to enter into the record a 
statement from Horizon Lines. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6528.013
    
    [GRAPHIC] [TIFF OMITTED] T6528.014
    
    [GRAPHIC] [TIFF OMITTED] T6528.015
    
    [GRAPHIC] [TIFF OMITTED] T6528.016
    
    [GRAPHIC] [TIFF OMITTED] T6528.017
    
    [GRAPHIC] [TIFF OMITTED] T6528.018
    
    [GRAPHIC] [TIFF OMITTED] T6528.019
    
    [GRAPHIC] [TIFF OMITTED] T6528.020
    
    [GRAPHIC] [TIFF OMITTED] T6528.021
    
    Mr. Landry [continuing]. Before I thank you again, you 
know, I want to thank the witnesses for their testimony and the 
Members for their participation. As you can see, look, I am a 
big proponent of the Coast Guard. I think you guys do a 
wonderful job. I think you all can do a little bit better of a 
job and lead here in Washington and show other agencies how we 
can get rid of some of these unnecessary regulations.
    And so with that, this subcommittee will stand adjourned.
    [Whereupon, at 10:50 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
